July 21, 2011 
 
To:        The Federal Co‐Chairman 
           ARC Executive Director 
 
Subject:   OIG Reports 11‐5 and 11‐6 
            Status of Basic Agency Grants 
 
 
Enclosed are our summary reports dealing with the status of basic agency administered grants. The 
reports pertain to follow‐up actions to determine the status of these grants and potential for grant 
closing and de‐obligations where appropriate. 
 
                             
                             
                             
Hubert Sparks 
Inspector General 
                                 OPEN BASIC AGENCY GRANTS
                      WITH LIMITED ACTIVITY AND FUND BALANCES
                                           OIG Report 11-5
                                             July 15, 2011
BACKGROUND

ARC initiated an assessment of open grants, including Basic Agency grants, in order to identify and
follow-up on the status of these grants and identify grants subject to closing and potential de-
obligations that would permit better use of funds. We support this initiative and this report highlights
grants approved prior to 2009 for which ARC records reflect unused balances and limited activity over a
substantial time period.

ARC approves grants for economic development projects in the Appalachian Region and, by law, relies
on other Federal Agencies (Basic Agencies) with construction expertise, to administer, manage, and
monitor construction related grants, and projects. Cooperation and coordination between ARC and
Basic Agencies is an important program element and the Basic Agencies are responsible for providing
ARC with project status reports, including information for grant close out when projects are completed.

RESULTS

Our review of information available on the ARC Net as of June 16, 2011, confirmed timely ARC
monitoring and follow-up on ARC administered grants to identify grants subject to closing, including de-
obligations and grants requiring performance extensions. For basic agency grants, 129 open grants
with fund balances totaling $27,275,326 that were approved prior to 2009 were identified.

This included 50 grants with reported funds balances of $16,419,910 where no approved funds were
noted as expended and 79 grants with partial expenditures, for which balances totaled $10,855,419,
including 19 instances where less than 50% of funds were expended.

ARC Net also noted that in most cases, especially as respects grants for which no expenditures were
noted, that lengthy periods had elapsed since the last transaction date. The age of the grants and the
elapsed transaction dates provide indicators of the potential for grant closings based on the applicable
projects being completed or the projects not being started, and related de-obligations.

Thus, primary emphasis should be placed on older grants with reported balances. Additionally,
increased emphasis should be placed on timely ARC follow-up actions with respect to basic agency
grants to determine the status of grants and applicable actions. Program guidance specifying project
manager responsibilities and controls such as periodic follow-up should be implemented and automatic
requests for status reports when lengthy transaction lapses or late Basic Agency reporting reach
specified time limits should be considered.

Basic agency grants do not identify estimated expiration or completion dates for the projects. We
recognize that time frames for construction related projects can vary substantially but believe that
estimated expiration/completion dates, which can be extended, based on reasonable justifications, are
a good management tool, and would provide a basis for follow-up when estimated dates pass without
significant project activity. Thus, ARC should coordinate with Basic Agency contacts about inclusion of
estimated end dates in grant agreements.

The attachments summarize and identify the information noted. We recognize that ongoing ARC
follow-up may have resulted in actions on some of the grants noted. We will also provide the attached
listings to the applicable Basic Agency and our recommendations for coordination and cooperation in
connection with ARC’s assessment of open grants.



Hubert Sparks
ARC Inspector General

Attachment 1 – Summary of Open Basic Agency Grants
               Approved prior to 2009 with reported current balances
Attachments 2 – 6 - Grants included in Attachment 1
Attachment 7 - Summary of last transaction dates with reported current balances
               Includes grants noted in tables 2-6.
                                                                                              Attachment 1



                              Open Basic Agency Grants Approved Prior to 2009
                                With Current Balances per ARC Net 6/17/11



                                                  Current Balances
Basic Agency      Number of        100% of ARC Funds     No.     Less than 100% No. 1         Balance Total
                  Grants                                         of ARC Funds

RDS                  52            $11,238,725               31      $ 2,177,953         21   $13,416,678

HUD                  42             $ 1,970,272               6      $ 5,344,593         36   $ 7,314,865

EPA                   8            $   578,358                4      $ 461,627            4   $ 1,039,985

TVA                  24            $ 2,632,555                9      $ 1,829,498         15   $ 4,462,053

CORPS                 3                 -                     -      $1,041,745           3   $ 1,041,754
Total                129           $16,419,910               50      $10,855,416         79   $27,275,326




1
    Number of grants with some expenditures but balances of more than 50% of ARC funds
    RDS - 4
    HUD - 6
    EDA - 1
    TVA - 4
    CORPS – 1
                                                                                    Attachment 2




                               RDS OPEN GRANTS
                              Approved Prior to 2009
                          (with noted current balances)



                                                       Reported Balance
Grant No.     Approved Date       ARC Funds          100%       Less than 100%[1]


GA-14525      8/20/2003       $     285,400.00                    $    20,055.00
GA-15599      9/3/2007        $     300,000.00   $   300,000.00
GA-15649      8/30/2007       $     300,000.00   $   300,000.00
GA-15748      9/25/2007       $     300,000.00   $   300,000.00
GA-15919      9/22/2008       $     300,000.00   $   300,000.00
GA-15920      9/23/2008       $     248,500.00                    $   190,357.00
GA-15963      9/29/2008       $     149,725.00   $   149,725.00

KY-151184     9/7/2005        $   500,000.00                      $    76,022.00
KY-15461      9/25/2006       $   400,000.00     $   600,000.00
KY-15461 R1   9/25/2007       $   200,000.00
KY-15657      9/17/2007       $   500,000.00     $   500,000.00
KY-15699      9/11/2002       $   500,000.00                      $   100,000.00
KY-16105      9/18/2008       $   500,000.00     $   500,000.00
KY-14349      9/12/2003       $ 1,000,000.00
KY-14349 R1   9/19/2003       $   210,000.00                      $   110,839.00

MD-14350      9/4/2004        $     250,000.00   $   250,000.00

MS-15395      9/17/2007       $     200,000.00                    $    59,119.00
MS-15879      9/8/2008        $     240,000.00                    $    82,766.00

NC-15691      9/17/2007       $     200,000.00   $   200,000.00
NC-15692      8/7/2007        $      45,000.00   $    45,000.00
NC-15693      3/27/2008       $     200,000.00                    $    22,063.00
NC-15890      9/12/2008       $     300,000.00   $   300,000.00
NC-15902      8/12/2008       $     300,000.00                    $   287,800.00
NC-15905      9/11/2008       $     300,000.00                    $    90,478.00
NC-15906      9/29/2008       $     300,000.00   $   300,000.00
NC-15466      8/27/2008       $     230,000.00                    $    55,055.00

NY-14847      8/16/2004       $     150,000.00                    $    25,792.00
NY-15479      8/11/2006       $     125,000.00   $   125,000.00
NY-15709      9/24/2007       $     150,000.00   $   150,000.00
NY-15928      8/7/2008        $     150,000.00   $   150,000.00
NY-15929      9/25/2008       $     150,000.00                    $   108,672.00
NY-16083      9/8/2008        $     150,000.00   $   150,000.00

OH-15604      9/6/2007        $     250,000.00                    $   158,718.00
OH-16050      8/25/2008       $     250,000.00   $   250,000.00

TN-14943      9/23/2004       $     500,000.00                    $    43,400.00
TN-15209      9/14/2005       $     255,000.00   $   255,000.00
TN-15242      9/25/2005       $     500,000.00   $   500,000.00
TN-15243      9/20/2005       $     500,000.00   $   500,000.00
                                                                                                    Attachment 2



                                                                     Reported Balance
Grant No.             Approved Date           ARC Funds            100%       Less than 100%[1]

TN-15444              8/16/2006           $       500,000.00   $   500,000.00
TN-16037              9/23/2008           $       272,900.00                     $     62,100.00
TN-16038              9/8/2008            $       500,000.00   $   500,000.00
TN-16039              9/8/2008            $       268,000.00   $   268,000.00
TN-16040              9/8/2008            $       136,000.00   $   136,000.00
TN-16043              9/8/2008            $       125,857.00                     $     40,650.00
TN-16124              9/26/2008           $       500,000.00   $   500,000.00
TN-16125              12/9/2008           $       500,000.00   $   500,000.00

VA-15179              9/22/2005           $       500,000.00                     $     33,939.00
VA-15431              9/27/2006           $       310,000.00   $   310,000.00
VA-15703              9/21/2007           $       400,000.00   $   400,000.00
VA-15703 R1           8/14/2008           $       500,000.00                     $     66,999.00

WV-14461              4/29/2003           $ 1,000,000.00       $ 1,000,000.00
WV-15391              8/29/2006           $ 1,000,000.00       $ 1,000,000.00
WV-16028              9/8/2008            $   508,875.00                         $    148,475.00
WV-13606              6/8/2000            $   507,928.00                         $    394,654.00
WV-13606 R1           3/29/2002           $    27,798.00
WV-13606 R2           9/24/2010           $   181,500.00

Total                                                          $ 11,238,725.00   $   2,177,953.00




[1] 4 of 21 with less than 5% of funds expended
                                                                                 Attachment 3




                            Open HUD Basic Agency Grants
                                Approved Prior to 2009
                            (with noted current balances)



                                                       Reported Balance
Grant No.   Approved Date        ARC Funds           100%       Less than 100%[1]
AL-15349       6/28/2005     $     100,000.00                    $         2,179.00
AL-14985       2/28/2005     $     200,000.00    $   200,000.00
AL-15549       4/24/2007     $     176,000.00                    $        51,227.00
AL-15814       9/25/2007     $     200,000.00                    $       107,661.00
AL-15113        9/7/2005     $     275,000.00                    $        29,867.00
AL-16057        9/8/2008     $     200,000.00                    $        53,691.00
AL-15976       9/17/2008     $     579,000.00                    $       508,210.00

GA-15600       8/30/2007     $     280,000.00                     $      70,789.00

KY-15998       7/10/2008     $     500,000.00                     $      26,426.00

MD-15917       7/10/2008     $     750,000.00                     $     487,565.00

MS-15037       5/12/2005     $      204,220.00                    $          94.00
MS-14889        2/2/2005     $      108,800.00                    $       9,954.00
MS-15323       5/12/2006     $      150,000.00                    $      14,744.00
MS-15379       8/22/2006     $      250,000.00                    $      25,975.00
MS-15514       9/25/2001     $      350,000.00                    $       3,751.00
MS-15223      10/24/2005     $      234,081.00                    $      72,007.00
MS-15912      7/20/2008      $      300,000.00   $   300,000.00
MS-15093       9/8/2005      $      250,000.00                    $      53,990.00
MS-14844      9/23/2004      $      100,000.00                    $         515.00
MS-15915      5/14/2008      $    1,283,000.00                    $       3,350.00
MS-15638      8/28/2007      $      200,000.00                    $       3,724.00

NC-15185       9/8/2005      $     200,000.00                     $     143,129.00

OH-14783       9/21/2004     $     292,000.00                     $         148.00
OH-15163        9/6/2005     $     200,000.00                     $       9,220.00
OH-15494       9/11/2006     $     200,000.00                     $      66,000.00
OH-15047       8/17/2005     $     275,000.00                     $      36,461.00
OH-14876       9/9/2004      $     142,000.00                     $      28,981.00
OH-15181       9/8/2005      $     180,000.00                     $      34,823.00

PA-15612       9/21/2007     $     145,000.00    $   145,000.00

SC-15762       8/28/2007     $     500,000.00    $   500,000.00
SC-15683       8/28/2007     $     500,000.00    $   500,000.00

TN-15231       9/9/2005      $     500,000.00                     $      33,832.00
                                                                                              Attachment 3



                                                                 Reported Balance
Grant No.         Approved Date          ARC Funds             100%       Less than 100%[1]

VA-16033              9/11/2008      $        325,272.00   $   325,272.00
VA-15374              8/15/2006      $        300,000.00                    $      98,072.00
VA-16003              8/9/2008       $        435,840.00                    $     197,599.00

WV-15159              8/17/2005      $      833,752.00                      $       1,296.00
WV-15973              7/18/2008      $    1,200,000.00                      $      51,486.00
WV-16023              8/19/2008      $    1,500,000.00                      $   1,490,949.00
WV-15972              7/28/2008      $    1,500,000.00                      $   1,274,969.00
WV-15639              8/25/2007      $    1,500,000.00                      $     275,073.00
WV-15363              8/25/2007      $    1,500,000.00                      $      64,171.00
WV-15640              8/7/2007       $    1,500,000.00                      $      12,665.00

Total                                                      $ 1,970,272.00   $   5,344,593.00




[1] 6 of 3% with less than 50% expenditures
                                                                                                 Attachment 4




                                TVA Open Grants Approved before 2009
                                     (with noted current balances)



                                                                Reported Balance
Grant No.         Approved Date          ARC Funds             100%       Less than 100%[1]
CO-14745          7/12/2004            $ 1,000,000.00                      $         71,961.00
CO-15792          9/21/2007            $   150,000.00     $    150,000.00

AL-15574          9/11/2007            $    100,000.00                       $      47,919.00

GA-15617          7/18/2007            $    100,000.00    $    100,000.00
GA-15194 C1       9/11/2006            $     50,000.00                       $      30,743.00
GA-16030          7/28/2006            $    300,000.00    $    300,000.00
GA-15615          9/27/2007            $    300,000.00                       $     245,083.00
GA-15575          8/28/2007            $    300,000.00                       $     126,435.00
GA-16102          9/10/2008            $    300,000.00                       $      19,707.00

MS-15943          9/17/2008            $    225,000.00    $    225,000.00
MS-15887          9/15/2008            $    283,695.00                       $      74,445.00
MS-15881          6/16/2008            $    150,000.00                       $      35,579.00

NC-15156          9/8/2005             $    125,558.00                       $      11,790.00

SC-15685          9/21/2007            $    475,000.00                       $     218,272.00

TN-14969          9/24/2004            $    500,000.00    $    500,000.00
TN-15801          9/28/2007            $    500,000.00    $    500,000.00
TN-15205          9/19/2005            $    400,000.00    $    400,000.00
TN-15214          9/26/2005            $    240,475.00    $    240,475.00
TN-15757          11/20/2007           $    217,080.00    $    217,080.00
TN-15758          9/13/2007            $    260,884.00                       $         473.00
TN-16031          9/11/2008            $    147,008.00                       $       4,280.00
TN-16035          9/8/2008             $    500,000.00                       $      17,017.00
TN-15215          9/19/2005            $    500,000.00                       $      14,453.00

VA-16005          9/15/2008            $   1,000,000.00                      $     911,341.00

Total                                                     $   2,632,555.00   $    1,829,498.00




[1] 4 with less than 50% expenditure
                                                                                               Attachment 5




                                             EDA Open Grants
                                          Approved Prior to 2009
                                          (with current balances)



                                                               Reported Balance
Grant No.        Approved Date          ARC Funds             100%        Less than 100%[1]
MD-15388            6/30/2006         $   500,000.00                       $      300,000.00

PA-15770              9/28/2007       $      200,000.00   $   200,000.00
PA-15589              7/18/2007       $      200,000.00   $   200,000.00
PA-15320              5/28/2007       $      103,358.00   $   103,358.00
PA-15070               9/7/2005       $       75,000.00   $    75,000.00
PA-15141              9/13/2005       $      150,000.00                    $      15,000.00
PA-15321               6/8/2006       $      200,000.00                    $      51,427.00
PA-15631              7/18/2007       $      200,000.00                    $      95,200.00

Total                                                     $   578,358.00   $     461,627.00




[1] 1 with less than 50% noted as expended
                                                                                        Attachment 6




                                      Corps of Engineers
                                  Open Approved Prior 2009
                                (with noted correct balances)


                                                          Reported Balance
Grant No.         Approved Date         ARC Funds        100%       Less than 100%[1]
CO-15510             9/28/2006        $  1,782,000.00                $     298,752.00
CO-15468             9/27/2006        $  1,000,010.00                $     699,264.00
CO-15412             9/11/2006        $    980,000.00                $      43,729.00

Total                                                                $   1,041,745.00




[1] 1 of 3 with less than 50% of ARC funds used.
                                                                                                  Attachment 7




                     Table of Last Transaction Dates for Grants with ARC Balances Noted on
                                                ARC Net 6/17/11




Basic Agency                         Open Grants                      Range of Days Since
                                     With Balances                    last Transaction Dates
RDS                                      163                               17 – 1020 1

HUD                                        74                              17 - 1629 2

TVA                                        60                              17 - 1417 3

EPA                                        16                              260 - 1204 4

CORPS                                       3                               17 – 108




1
 In 79 of 163 cases, the elapsed time frame the last transaction date exceeded 320 days. In 65 instances, the
elapsed time exceeded 620 days.
2
In 34 of 74 cases, elapsed time exceeded 375 days.
3
In 21 of 60 cases, elapsed time exceeded 320 days.
4
    In 9 of 16 cases, elapsed time exceeded 350 days.
